                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                                                                     r
                                                   OFFICE OF INVESTIGATIONS                                        I



                                             CLOSEOUT MEMORANDUM                                     j/


Case Number: I05080036
                                                                                          Page 1 of 1
                                                                                                     Ii
                                                                                                                   !!

                                                                                                                        I
         The National Science Foundation, Office of Inspector General, conducted a review of fiscal year
         2000 through fiscal year 2003 closed awards that involved substantial participant supPo&funds
         in US - foreign collaborative awards. As part of the review, we requested the          provide         ,

         financial information and supporting documentation on NSF award.2

         The documentation provided by the grantee revealed one questionable expense. The grantee
                                                                                                    il
         submitted a charge for $1,298.72 that was for foreign travel by the PI^ that appeared to be
         unsupported. There was supporting documentation for $2,460.45 for the same time that was not
         charged to the grant. This was the same travel, with only $1,298.72 being charged to thk award.

         The NSF Program officer4 advised that this award was funded by the US State Department and "
         that the primary focus was collaboration between foreign researchers and US. Foreign travel was
                                                                                                  1
         a necessary part of this award and the PI was allowed to use the participant support funds for
         foreign travel.                                                                                       I<




         The $1,298.72 was used in accordance with the terms of the award and there are no other issues
                                                                                               l
         with the award.
                                                                                                           11

         Accordingly, this case is closed.
                                                                                                I1

                                                                                                               I




                                                                                                11

                                                                                                           11




                                                                                               i



                                                                                               ;I
                                                                                                           I




          ' Footnote redacted                                                                  I!
           Footnote redacted
           Footnote redacted                                                                               I

           Footnote redacted

                                                                                               I
NSF OIG Form 2 (1 1/02)
